                                                        National Railroad Passenger Corporation
                                                        Office of Inspector General
                                                        10 G Street, N.E.
                                                        Washington, DC 20002



.
                   Proactive Efforts Regarding Medical Leave of Absence
                                    Case Number 08-141
                                      December 8, 2010

The Office of Inspector General (“OIG”) Office of Investigations, in conjunction with Amtrak’s
Health Services Department, conducted a proactive initiative involving employees on Medical
Leave of Absence (“MLOA”). The initiative was designed to identify those employees who
were abusing the MLOA process.

As a result of this joint venture, Amtrak benefited from a cost savings of $87,486 as a result of
63 employees returning to work. An additional 34 employees were terminated by Management.

.
